U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Walter N. Strand, III v. United States, No. 20-111
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 29, 2020.
The government’s response is now due, after one extension, on October 1, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 30, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0111
STRAND, WALTER N., III
USA

LUCAS TAYLOR HANBACK
ROGERS JOSEPH O'DONNELL P.C
875 15TH STREET, NW
SUITE 725
WASHINGTON, DC 20005
202-777-8955
LHANBACK@RJO.COM

